<html>
<title> - UNDERSTANDING THE FIGHT TO PROTECT LGBTQI + RIGHTS IN EUROPE AND EURASIA</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
             UNDERSTANDING THE FIGHT TO PROTECT LGBTQI
                  + RIGHTS IN EUROPE AND EURASIA

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EUROPE, ENERGY, THE ENVIRONMENT AND CYBER

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 11, 2021

                               __________

                           Serial No. 117-57

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        


       Available:  http://www.foreignaffairs.house.gov/, http://docs.house.gov,                             
                       or http://www.govinfo.gov
                       
                       
                              ______                       


                 U.S. GOVERNMENT PUBLISHING OFFICE 
44-805 PDF                WASHINGTON : 2021                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia         CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida          STEVE CHABOT, Ohio
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM R. KEATING, Massachusetts    DARRELL ISSA, California
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                ANN WAGNER, Missouri
DINA TITUS, Nevada                   BRIAN MAST, Florida
TED LIEU, California                 BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota             TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota                MARK GREEN, Tennessee
COLIN ALLRED, Texas                  ANDY BARR, Kentucky
ANDY LEVIN, Michigan                 GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia         DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania       AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey           PETER MEIJER, Michigan
ANDY KIM, New Jersey                 NICOLE MALLIOTAKIS, New York
SARA JACOBS, California              RONNY JACKSON, Texas
KATHY MANNING, North Carolina        YOUNG KIM, California
JIM COSTA, California                MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California              JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas              RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

        Subcommittee on Europe, Energy,the Environment and Cyber

              WILLIAM R. KEATING, Massachusetts, Chairman

SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, 
ABIGAIL SPANBERGER, Virginia             Pennsylvania,Ranking Member
ALBIO SIRES, New Jersey             ANN WAGNER, Missouri
THEODORE DEUTCH, Florida            ADAM KINZINGER, Illinois,
DAVID CICILLINE, Rhode Island       BRIAN MAST, Florida
DINA TITUS, Nevada                  DAN MEUSER, Pennsylvania
DEAN PHILLIPS, Minnesota            AUGUST PFLUGER, Texas
JIM COSTA, California               NICOLE MALLIOTAKIS, New York
VICENTE GONZALEZ, Texas             PETER MEIJER, Michigan
BRAD SCHNEIDER, Illinois

                  LEAH NODVIN, Staff Director

                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Van Roozendaal, Bjorn, Programmes Director, ILGA-Europe..........     6
Zakharova, Svetlana, Co-Secretary, ILGA-Europe Board Member, 
  Russian LGBT Network...........................................    13
Dombos, Tamas, Board Member, Hatter Society......................    16
Emson, Dr. Lenny, Director, Kyivpride............................    20

                                APPENDIX

Hearing Notice...................................................    35
Hearing Minutes..................................................    36
Hearing Attendance...............................................    37


UNDERSTANDING THE FIGHT TO PROTECT LGBTQI+ RIGHTS IN EUROPE AND EURASIA

                         Friday, June 11, 2021

                          House of Representatives,
  Subcommittee on Europe, Energy, the Environment, 
                                         and Cyber,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 11:07 a.m., 
via Webex, Hon. William R. Keating (chairman of the 
subcommittee) presiding.
    Mr. Keating. Good morning, everyone.
    And we would like to welcome our distinguish witnesses.
    This month around the world we recognize Pride month, a 
celebration that started as a protest to advance the rights of 
the LGBTQI+ identifying people and ensure equal treatment under 
the law.
    In anticipation of this month, we organized this hearing 
focused on the fight to protect these important civil rights in 
Europe and Eurasia. Under the leadership of Chairman Meeks, 
this will be the first hearing held by the House of 
Representatives Foreign Affairs Committee focused solely on the 
advancement of LGBTQI+ rights, but it will not be the last, and 
it is built on the legislative work of many of my colleagues, 
especially those on the subcommittee.
    Representative David Cicilline, the chair of the 
congressional LGBTQI+ Equality Caucus, has been leading the way 
with legislation like the Equality Act and the Global Respect 
Act. And Representative Titus has reintroduced the GLOBE Act 
just this month. Importantly, later this month Chairman Meeks 
will hold a hearing on LGBTQI+ rights globally.
    All of these efforts are based on the belief in universal 
rights for all people. I am proud to stand with the human 
rights activists and defenders, fighting for this cause. 
Indeed, as a result of the work of human rights groups around 
the world, great strides have been made in the advancement of 
equally rights for all people, including LGBTQI+ identifying 
people. The European Union, along with our own country, are now 
considered some of the most open and free places for LGBTQI+ 
identifying people to not only live but to prosper.
    Now we, the United States, as an historic leader for human 
rights globally, must make it clear that LGBTQI+ rights are 
universal. And I commend the Biden Administration for making it 
a U.S. policy to lead by the power of our example in the cause 
of advancing this important human right to all people around 
the world. For this reason we are here today to highlight and 
uplift the voices of this community, a community that we 
continue to tirelessly work with to pave the way toward 
equality at home and abroad.
    Unfortunately, in some countries in Europe and Eurasia, 
this work is far from over and some LGBTQI+ communities 
experience a range of discriminatory practices and outright 
violence. For this reason I have called this hearing and 
invited activists and experts on the ground in Europe and 
Eurasia to speak to the challenges faced by LGBTQI+ community 
members in the region and how the United States and its 
partners can create and implement tangible change, change that 
will protect these important human rights.
    Inspired by initiatives like a resolution passed by the 
European Parliament, declaring the European Union an LGBTQI+ 
Freedom Zone, this morning, with the support of many of the 
members of the committee, I introduced a resolution that 
underscores the right of the LGBTQI+ identifying people to 
equal and unalienable human rights around the world including 
Europe and Eurasia. We can and we must do much more to uphold 
and promote the equal rights protection of these identifying 
people so that they, too, can live prosperous, happy, and free 
lives.
    With that said, I would like to welcome the witnesses who 
are joining us today. We are deeply grateful for your 
willingness to share your knowledge and advice with the 
Subcommittee to better inform us and all of the U.S. and our 
transatlantic allies on important information and experiences 
for the advancement of rights at home here and abroad.
    I will now turn to the ranking member, Representative 
Fitzpatrick, for his opening remarks.
    Mr. Fitzpatrick. Thank you, Chairman Keating, and to our 
friend and colleague, David Cicilline, and thanks to all the 
witnesses here today.
    And this is an incredibly important topic, one very 
important to me, and it is also timely as June is Pride month 
here in the United States.
    And today we will discuss the LGBTQI+ rights in Europe and 
Eurasia. I am sure our witnesses will discuss the progress that 
has been made over the last few decades, as well as areas that 
need immediate and decisive remedies. The Council of Europe 
Steering Committee for Human Rights noted substantial progress 
regarding the legal and social recognitions of the LGBTQI+ 
persons across its 47 member States over the last decade. 
However, they also recognize that the wide variation in the 
rights and protections lend itself to a myriad of challenges.
    In a 2021 annual report by the counsel of Europe's 
Commission Against Racism and Intolerance, officials warned of 
a growing backlash against the protection of LGBTQI+ persons' 
human rights. Oppressive political policies that target members 
of the community like those in Russia are a strong indicator of 
human rights abuses in civil society as well. When we see these 
abuses, we have an obligation to take action.
    Russian authorities destroyed families and stripped 
adoptive parents of their children on mere suspicions. Human 
rights monitors reported that in 2017 men were rounded up in 
Chechnya based on their suspected sexual orientation and were 
beaten and tortured, some to death. Human rights activists in 
Russia have suffered wrongful imprisonment, physical assault, 
and egregious intimidation by the State for standing up for 
their friends and families.
    These actions run contrary to our own nation's ideals of 
tolerance and diversity. And in the face of hate-based 
incidents, we must stand together, resolute in the pursuit of 
justice. No person should ever feel threatened based on who 
they are, what they believe, or who they love. Basic rights and 
human dignity are at the core of American values, and it should 
remain the top priority of our foreign policy objectives.
    While we take this month to celebrate advancements made in 
civil rights throughout the United States, we must work to 
actively combat intolerance and stand together to promote 
equality and dignity for all.
    I will tell you I will continue to do so throughout my 
tenure in Congress. I urge my colleagues on both sides of the 
aisle to do the same, and I am glad this subcommittee has 
recognized the value of this issue. I am grateful for our 
witnesses being here and look forward to your testimony today.
    Mr. Chairman, I yield back.
    Mr. Keating. I would like to thank the ranking member for 
his remarks.
    And I would like to now turn to Representative Cicilline, 
the chair of the LGBTQI+ Equality Caucus, for a 3-minute 
opening statement.
    Representative Cicilline.
    Mr. Cicilline. Thank, Mr. Chairman, and thank you to you 
and to the ranking member for calling this really important 
hearing as we gather to reaffirm our commitment to advocate on 
behalf of those that are increasingly persecuted and 
marginalized because of who they, are who they love and how 
they identify. Without that commitment, we risk not the rights 
only of LGBTQI people, we risk not just democracy for LGBTQI+ 
people, we risk not just the safety and security of LGBTQI 
people, we risk it for all people. As chair of the 
congressional LGBTQ Equality Caucus, I hope today will serve as 
a marker on a path back to American, European, and global 
leadership on human rights for all.
    Thirty years ago much of Eastern and Central Europe threw 
off the shackles of oppression and chartered a future that 
sought freedoms for all the people of Europe, the future in 
which human rights and democracy would define a continent that 
had been suppressed by the unrelenting despair of decades of 
tyranny and oppression. For many that optimism has been 
replaced by a sense of fear than even in parts of Europe today 
they cannot truly be free from discrimination, persecution, or 
violence.
    In Poland, LGBTQI+ people must live in fear in LGBTQI+ free 
zones that deny them their very humanity. In Hungary, Viktor 
Orban scapegoats the LGBTQI+ community to continue his assaults 
on the freedoms of Hungarian. In Ukraine, the future of 
democracy and the rule of law is imperiled by the prospect of 
Russian-backed legislation that would deny the rights of 
Ukraine's LGBTQI+ population. In Chechnya, LGBTQI+ people must 
live underground for fear of being abducted and tortured by 
authorities.
    It is perhaps unsurprising then that many of these States 
are also democratic laggage that have seen basic civil 
liberties like freedom of assembly, freedom of the press, and 
the right to voice political opposition curtailed. The mistakes 
some risk making is human regression of human rights of LGBTQI+ 
people in these States is an issue that affects just one group 
of people. Our own recent history here in United States has 
taught us that political opportunists will never stop finding a 
new scapegoat.
    So let us remind ourselves of fundamental truths. The 
violence against any people because of who they are is a 
violence against all people. An injustice against any people of 
how they identify is an injustice against all people, that 
discrimination against any person is intolerable and cannot 
stand, and that equality is the indispensable tool for 
advancing the rights of all peoples everywhere.
    And, Mr. Chairman, with the legislation on the Global 
Respect Act and the GLOBE Act, we can once again demonstrate 
our commitment to leading on behalf of some of the world's most 
vulnerable people. I thank you again for calling this hearing 
and look forward to working with you, my colleagues on this 
subcommittee, and all of our colleagues in the House to protect 
the rights of a few so that we may protect the rights of all.
    And with that, Mr. Chairman, I yield back.
    Mr. Keating. Thank you, Representative Cicilline. Thank you 
for your leadership.
    I will now introduce our witnesses, and I thank you all for 
being here today.
    Bjorn van Roozendaal is the program director for ILGA-
Europe. Svetlana Zakharova is the co-secretary for ILGA-Europe 
and a board member at the Russian LGBT Network. 
Tamas<greek-th>mbos is a board member at the Hatter Society in 
Hungary. And Dr. Lenny Emson is the director of the NGO Kyiv 
Pride in Ukraine.
    I will now recognize the witnesses for 5 minutes each. And, 
without objection, your prepared written statements will be 
made part of the record.
    Mr. van Roozendaal, you are now recognized for your opening 
statement.

 STATEMENT OF BJORN VAN ROOZENDAAL, PROGRAMMES DIRECTOR, ILGA-
                             EUROPE

    Mr. van Roozendaal. Thank you, Chairman Keating, for the 
initiative of this hearing and thank you, Ranking Member 
Fitzpatrick and Representative Cicilline, for all of the work 
that you are doing in this area.
    I appreciate the initiative for this hearing today and your 
interest in the situation of LGBTI rights in Europe and Central 
Asia. It comes as a critical time as, unfortunately, there is 
widespread and almost complete stagnation on the human rights 
of LGBTI people in the region. COVID-19 seems to have become an 
excuse to expunge LGBTI rights in many countries. Let me give a 
few examples.
    Civil society space has been shrinking in countries like 
Poland, Kyrgyzstan, Russia, Turkey, often limiting 
possibilities for LGBTI activists to exercise their human 
rights work. Uzbeky government continues to penalize same-sex 
conduct between men, and it is high time that the criminal law 
is abolished.
    The impact of anti-trans sentiments is unfortunately felt 
across the region, not just only in Eastern Europe and Central 
Asia but also in places where historically more progress on 
LGBTI rights was made like the United Kingdom, as well as 
Scandinavian countries. These sentiments are not just 
conceptual debates on the notion of gender. Unfortunately they 
deeply impact LGBTQI people in their everyday lives. 
Organizations from across the region have reported over the 
last year increasing hatred online but also in the streets.
    While legal protections against violence and discrimination 
exists in many countries, there unfortunately also remain too 
many gaps. Hate crime laws are absent not just in countries 
like Armenia and Slovenia but also in Germany and Ireland. And 
we see the implementation of existing procedures on legal 
gender recognition worsening including in places like Georgia, 
Spain, and Serbia.
    Distinguished members of this House, some countries in 
Europe once may have been the beacon of hope for LGBTI rights 
globally but we have learned that progress made in the work 
toward equality provide no guarantees for the future.
    COVID-19 seems to have become an excuse for too many 
leaders in government in making progress on providing 
protection and equality through law or to speak out to rising 
anti-LGBTI sentiments.
    It would be easy to blame it all on political attention 
being immersed in the public health response to COVID-19 and 
the ensuing the economic fallout, but the reality is a lot more 
complex. In too many countries progress is stopped because 
there is increased political polarization on LGBTI issues and 
because governments do not see it as a political issue, as a 
priority issue. LGBTQI organizations are at the very center of 
these developments.
    Currently and often as a result of COVID, many provide 
humanitarian support to their communities, as governments fail 
to provide basic needs. In the context of rising opposition, 
providing security and emergent protection has become evermore 
important in the work. With scarce resources and fading 
political attention, too many activists struggle to balance the 
need to provide support to their communities, while keeping 
afloat the political work to advance LGBTQI rights.
    The U.S. State Department and USAID have been financially 
and politically supportive toward the work of LGBTQI movements 
globally for several years and with bipartisan support. It is 
critically important this funding and political support 
continues, that the funding increases, and that it continues to 
focus on the European and Central Asian regions. And it is 
important that these efforts continue to be prioritized and 
integrated in wider efforts to support anti-democratic 
developments.
    Thankfully in these difficult times European institutions 
have stepped up their work to support LGBTQI rights. The EU 
last year adopted the LGBTQI Equality Strategy which includes 
an extensive plan of action on many fronts. European 
Parliament, as was already said, like this House, undertakes 
cross-party action to advance the rights of LGBTQI people in 
the EU but also globally. And the Council of Europe has created 
an anti-discrimination steering committee which works on sexual 
orientation and gender identity as part of its mandate.
    In a time where working in alliances evermore important, 
there is political capital to work on both sides of the 
Atlantic. For the U.S. Government, the European institutions 
are important partners to work with, not just for the promotion 
of LGBTQI rights in foreign policy but also incorporating to 
strengthen human rights at home, which, given the growing 
polarization, I think is an important dimension in doing this 
work successfully as it builds political credibility to this 
important work. Thank you.
    [The prepared statement of Mr. Van Roozendaal follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

       Mr. Keating. Well, thank you, Mr. van Roozendaal.
    Now I will recognize Ms. Zakharova--Zakharova--I 
apologize--for your opening statement.
    Ms. Zakharova.

  STATEMENT OF SVETLANA ZAKHAROVA, CO-SECRETARY, ILGA-EUROPE 
               BOARD MEMBER, RUSSIAN LGBT NETWORK

    Ms. Zakharova. Thank you, Chair Keating, Ranking Member 
Fitzpatrick, and Representatives.
    My name is Svetlana Zakharova. I am a lesbian, a feminist, 
and a human rights defender from Russia. I work with the 
Russian LGBT Network since 2014, and Russian LGBT Network is 
the biggest organization in the country that fights for equal 
rights for everyone, regardless of sexual orientation and 
gender identity.
    Last December I became the director of the Legal and Social 
Support Charitable Foundation Sphere, organization-operator of 
the LGBT Network.
    I am grateful for this opportunity to testify before the 
subcommittee, especially today. Exactly on said date, 8 years 
ago, the so-called propaganda law was adopted in Russia at 
Federal level.
    This legislation is really bad in many ways but I think 
that the trickiest thing about this legislation is the fact 
that it do not define what exactly propaganda means and, as a 
result, every judge or State official or even police officer 
decide by himself or herself if a particular case is propaganda 
or not.
    The truth is this legislation is not really used widely, 
but it creates an atmosphere of impunity for the perpetrators. 
Those people who commit hate crimes, they believe that they are 
doing the right thing. They believe that the authority is 
behind them. And LGBT+ communities on the other side feel 
targeted, vulnerable, and unprotected.
    The consequences of this legislation on Euros open public 
discussion about LGBT+ rights in Russia is almost impossible. 
LGBT minors do not get any support because psychologists and 
social workers are just afraid to work with them. They are 
afraid of being accused of propaganda. Online sources the 
related to LGBT+ issues are being blocked. The amount of hate 
crimes has grown. Freedom of expression, freedom of speech, and 
freedom of assembly are violated.
    And the extreme case is what happened in Chechnya. LGBT 
people are deprived of the very basic right, the right to life. 
In 2017, the whole world learned that LGBT+ people in Chechnya 
are being kidnapped, tortured, and even killed just because of 
their sexual orientation or gender identity. We started to 
support those people in 2017, and we still are doing that 
because it is far from being over.
    Actually I planned to devote my testimony to the rights 
LGBT+ in Russia is growing and getting stronger, despite of all 
the pressure and everything that is going on in the country. I 
wanted to talk about the ways how public opinion is changing to 
the better because of the works of organizations and people who 
are working hard every day to do so, but yesterday happened 
something that changed my testimony completely.
    Last night the shelter for victims of the domestic violence 
in Makhachkala Dagestan was attacked by the law enforcement 
agencies. Several women including Svetlana Anokhina, a human 
rights defender, were brutally detained. They are still 
detained for no reasons but helping other women. We believe 
that this shelter was attacked because Khalimatt Taramova was 
there--recently she contacted the Russian LGBT Network and she 
said that her life is in mortal danger because of her sexual 
orientation. With her girlfriend she managed to leave Chechnya. 
She went to the Daghestan Makhachkala, and she was in the 
shelter. She was waiting for evacuation to a safer place, but 
basically she was kidnapped by the law enforcement agencies. 
She was taken back to Chechnya, and probably she was given to 
her parents. We do not know if she is alive. Her girlfriend was 
released today. She managed to contact us and to tell us what 
really happened. She is out of Makhachkala Daghestan now.
    The situation is just unbelievable. The law enforcement 
agencies are attacking shelters of the victims of the domestic 
violence and kidnap people they should protect. It happened in 
Russia right now. And I want to point your attention to that 
and to the ways how some people in Russia are deprived from 
this very basic right, the right to life. We all know that our 
Presidents are going to meet soon and I believe that this the 
situation with LGBT+ rights in Russia, in Chechnya, and 
especially the fate of Khalimat Taramova should be discussed.
    Thank you for your attention.
    [The prepared statement of Ms. Zakharova follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
        
    Mr. Keating. Thank you, Ms. Zakharova.
    The chair now recognizes for 5 minutes Mr. Dombos.

    STATEMENT OF TAMAS DOMBOS, BOARD MEMBER, HATTER SOCIETY

    Mr. Dombos. Chairman Keating, members of the subcommittee, 
I appreciate the opportunity to testify before you about the 
gross violations of human rights of LGBTQI people in Hungary. 
My testimony today is in my capacity as board member of Hatter 
Society and the Hungarian LGBT Alliance.
    Historically speaking, Hungary was a country with a 
relatively high level of acceptance and legal protections 
afforded to sexual and gender minorities. The country 
decriminalized homosexuality in 1961. The first gay association 
was set up before the end of socialism. The law recognizes 
same-sex couples since 1996. Transgender people had access to 
legal gender recognition. Budapest, our lovely capital, hosted 
the first ever Pride march in the region more than two decades 
ago in 1997.
    In the past decade and especially in the past 2 years, 
however, the legal, social, and political situation of LGBTQI 
people has severely deteriorated. It started with the adoption 
of a new constitution in 2012. It contains a provision that 
defines marriage as a union between a woman and a man and 
family with only reference to marriage and parent-child 
relationships. Since, then our families have lived in a legal 
vacuum.
    Governmental homophobia and transphobia reached a new peak 
in 2019 when high-ranking public officials, governing 
politicians, and overwhelmingly government-controlled public 
and private media started to speak in an unprecedentedly 
hostile way about our community. The speaker of the parliament 
likened same-sex couples raising children to pedophiles. Prime 
Minister Orban said homosexuals should keep their hands off our 
children. A senior member of parliament called for banning our 
Pride march and for boycotting Coca-Cola as they featured a 
same-sex couple in advertisements.
    But the attacks did not stop at words. Last May the 
parliament banned legal gender recognition for trans and 
intersex people. Trans people now have to live with official 
documents that do not reflect their gender identity and/or 
their appearance.
    In December 2020, the parliament restricted adoption by 
non-married couples--non-married persons. It will not longer be 
professionals but rather a politician, our openly homophobic 
Minister of Family Affairs, who will make decisions on who is a 
suitable parent.
    Most recently, just yesterday, an amendment was introduced 
in parliament, copying the infamous Russian propaganda law. The 
amendment would ban discussions on homosexuality and trans 
persons in schools, ban advertisements portraying gay and 
lesbian couples, and sanction shops selling books or movies 
featuring LGBTQI+ people to minors. And we are not talking 
about the portrayal of sexual relations but any portrayal of a 
gay or lesbian person, a same-sex couple, or a transgender 
person.
    Most of these legislative changes happened during the peak 
of the COVID crisis when hundreds of people were dying every 
day. All these changes form part of a very conscious and 
diabolic political strategy to divert attention away from the 
inability of the government to tackle the health, social, and 
economic crisis COVID brought to our country.
    While these discussions were happening in parliament, 
extreme right-wing paramilitary groups felt encouraged to 
disrupt our work in legal ways. Dozens of Nazis regularly come 
to our events, not just the Pride march but movie screenings, 
workshops, discussions. They threaten the participants, 
physically abuse the organizers, steal or burn our rainbow 
flags, and the police offer no protection.
    We are sad, angry, and fearful. The rights we have fought 
for so hard for so long can be taken away from us at the 
glimpse of a moment. We have become tools in a political game. 
We became enemy No. 1 just because of the way we love or the 
way we identify. Don't be misled by the government's 
propaganda. The majority of Hungarians are not homophobes or 
transphobes. The majority agrees with legal equality for LGBTQI 
people, with legal gender recognition of trans people, with 
same-sex couples being a family. These are facts of public 
opinion polls.
    We are not threatened by our society. We are threatened by 
a political leadership that creates and fights false enemies 
instead of governing the country, a political leadership that 
completely disregards not only its international obligations 
but binding court decisions. If they do not agree with a court 
ruling, they change the law the next day. They abolish checks 
and balances, dismantle democratic institutions, fill up our 
courts and public bodies with their friends.
    The problems we face do not only target us as LGBTQI Pride 
persons, they target us as human rights defenders, as 
independent civil society actors, as autonomous citizens.
    But we do not give up. We will fight our legal battles, and 
we will protect our community from these attacks. We will make 
sure that every person understands how living in such a hostile 
political environment undermines our everyday existence, our 
mental and physical well-being. And we will make sure that our 
country finds its way back to a community of democracies built 
on the respect for human rights, equality and the rule of law. 
But we need your help as well. You have to hold our government 
accountable to its international human rights commitments. 
Thank you.
    [The prepared statement of Mr. Dombos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

    
    Mr. Keating. Thank you, Mr. Dombos. I would now like to 
call on Dr. Emson for your opening statement. Dr. Emson.

       STATEMENT OF DR. LENNY EMSON, DIRECTOR, KYIVPRIDE

    Dr. Emson. Chair Keating, Ranking Member Fitzpatrick, and 
distinguished members of the committee, thank you for inviting 
me to testify on this important issue during the Pride month.
    I represent an NGO that annually organizes the largest 
LGBTQI rally newspaper Ukraine, Kyiv Pride March of Equality. 
Back in 2013, the Kyiv Pride march began on a short walk of 
about 50 people and took place in the outskirts of the city. It 
was tremendously hard to make sure that authorities didn't ban 
it to ensure our protection from groups opposing equal rights. 
In just 6 years the Kyiv Pride march has transformed into a 
massive rally of more than 10,000 people taking place in 
central Kyiv in 2019.
    The striking difference in numbers within a span of just a 
few years demonstrates the progress our society has made in 
terms of respecting and protecting LGBTI rights. This progress 
would have not been possible without the consistent support of 
the United States. The efforts to strengthen Ukraine's police 
reform and civil society were not in vain.
    However, some very serious challenges remain for our 
community. Our increased visibility has sparked a surge in the 
numbers of hate crimes against LGBTI people. Violent groups 
advocating hatred began targeting us. They often come to our 
events and do whatever they can to disrupt them including 
resorting to violence. These groups are operating in an 
organized manner. They are easy to identify, but they enjoy 
mere total impunity for their attacks.
    Today several right-radical NGO's are clearly visible in 
acting in many cities of the country. In 2020, they have 
organized several attacks on LGBTI community centers and events 
such as Odesa Pride when a dozen participants was attacked and 
injured.
    In 2021, the community center of the LGBT Association, 
LIGA, has received bomb threats twice. These actions are widely 
supported by many Ukrainian politicians. And MPs and the number 
of attacks on LGBTI activities by far right groups has sharply 
increased, 24 cases in 2020 against 11 in 2019.
    Just within the last week of May this year there have been 
four such attacks including one attack on a Kyiv Pride-
organized film screening.
    Every time we have to live in fear of yet another attack. 
Unfortunately the police are not doing nearly enough to address 
such attacks and hold the perpetrators accountable. Currently 
Ukraine does not explicitly recognize homophobia as motives of 
a hate crime in its legislation. This issue is invisible for 
the State.
    Holding perpetrators accountable, even without 
acknowledging hate motive, is also incredibly rare. In one 
emblematic case of activist Vitalina Koval, people who threw 
paint at her and caused chemical burns to her eyes were charged 
with causing her minor bodily harm and were brought before 
court. The court was looking into her case for almost 3 years 
and yet failed to prosecute Vitalina Koval's attackers because 
of an expired statute of limitations for such crimes.
    The lack of legislation that recognizes homophobia as types 
of discriminatory motives, as well as the lack of effective 
investigations, is what keeps pulling our country back in terms 
of LGBTI rights progress.
    The good news is our government has recently registered a 
bill that will introduce the reform of the anti-hate crime 
legislation. We expect this bill to be widely opposed and so we 
would like to ask for solidarity from the international 
community.
    Our members of parliamentary should be urged that this 
reform is necessary. I would also like to emphasize that, even 
if we would have the most perfect law addressing hate crimes, 
this law would still have to be implemented. That is why any 
kind of support to continue Ukraine's police reform is most 
welcome.
    In 2013, the Kyiv Pride March for Equality took place 
largely because of the international support from governments, 
embassies, and allied organizations. Today civil society in 
Ukraine needs that same support in order to ensure that legal 
reform continues and that these acts of violence against the 
LGBTI community are rightly considered hate crimes and are 
prosecuted as such.
    Thank you.
    [The prepared statement of Dr. Emson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
     
    Mr. Keating. Thank you, Dr. Emson, and thank all of you for 
your testimony.
    I will now recognize all members for 5 minutes each 
pursuant to House rules. All time yielded is for the purposes 
of questioning witnesses. Because of the virtual format of this 
hearing, I will recognize members of the committee by seniority 
alternating between Democrats and Republicans. If you miss your 
turn, please let our staff know and we will circle back to you. 
If you seek recognition, you must unmute your microphone and 
address the chair verbally. I will now recognize myself for 5 
minutes.
    And I want to thank the witnesses. I think you all did a 
very good job of showing how the connection with LGBTQI+ 
rights, these basic civil rights, the deterioration of that 
coincides with other types of democratic backsliding.
    One of the issues, whether it is rule of law, whether it is 
enforcement by police or law enforcement, security people, 
but--or the judiciary, I just want to start with one question--
and I think it was Mr. Dombos that brought this up--but one of 
the areas of backsliding that are concerning are what is 
happening in these authoritarian countries with the media.
    Could you_all comment on how they are using the media to 
really tamp down these basic human rights and the kind of 
things they are doing? I think that--we see what they are doing 
in Russia now with the foreign agents legislation. We are 
seeing the effect on Radio Free Europe. And we are seeing it on 
Meduza and other sources.
    So could you share with us just how this is happening and 
what kind of a threat it presents? Anyone that would like to 
start with that would be great, yes.
    Ms. Zakharova. Chair Keating, I would like to start.
    Well, you started to talk about Russia and I myself am from 
Russia. At Charitable Foundation Sphere, I am the director of 
the organization added to the list of foreign agents since 
2016. So I know exactly how to--how it to be a foreign agent.
    Talking about mass media, most mass media in Russia is 
State controlled and it is really hard to go to them and to 
present a different image of LGBT+ community and most of them 
portray LGBT+ community as pedophiles, as foreign agents, as 
people who want to destroy our traditional values, whatever it 
is supposed to mean. But, of course, we have support from the 
independent mass media and we are really grateful for this 
support because it is almost the only chance for us to talk 
about LGBT rights.
    Thank you.
    Mr. Keating. Anyone else want to comment on that?
    I have another question. In a parliamentary system, unlike 
our own, we are finding in very close elections the coalitions 
coming together that are formed after those elections often 
rely on small minority parties to give them a coalition 
majority. Are you seeing some of the far-right right groups 
that are actually attacking these basic human rights, forming 
these colations and what kind of influence are they having, 
albeit a small minority, but also leveraging that for a 
coalition? Do you see any of that occurring in these small 
parties?
    Mr. Dombos.
    Mr. Dombos. Yes, just first to react to the media, 
currently in Hungary, the media is under strict governmental 
control. Yes, there is private media but many of the private 
media has been bought by pro-government businessmen with the 
help of loans from the government and the public media and all 
these pro-government media are micromanaged. They are told what 
message to send, which people to invite.
    Just to give you an example, a few months ago I was invited 
to the public radio for a discussion about a specific topic. We 
set up an interview. And 15 minutes later I got a phone call, 
saying that, ``I am sorry. We cannot have that interview 
because you appear on the list of banned persons.'' And so 
there is an official list in the public radio about 
organizations and people that they cannot invite. I mean, that 
is the level of oppression in the media that happens.
    And regarding the second question, in Hungary I think the 
most extremist political party currently is Fidesz. It is the 
governing party. We have had Jobbik, an extreme-right party 
that, compared to Fidesz, now is a moderate centrist party. 
Over the past 10 years, month after month the government has 
become more xenophobic, racist, and most recently completely 
LGBTQI-phobic. They--they create now a fake party, Mi Hazan, 
and they play into the hands of this extremist party so that 
they can claim they are not the most extreme one but do not be 
fooled by it. This is a political game. They created a party 
that is more--that seems to be more extremist than them so that 
they can claim that they are a centrist moderate party and if 
they are not in power, then those Nazis will come in. Those 
Nazis are them. They are financing them. They are giving them 
media space to create this image that they are the moderate 
centrist parties. That is a lie.
    Mr. Keating. Thank you so much for that.
    I now recognize Representative Deutch for 5 minutes for his 
questions.
    Mr. Deutch. Thanks. Thanks so much, Mr. Chairman, and 
thanks for calling this really important and_I think we can 
say_historic hearing. In on our committee, I am just glad that 
I am one of several members of the congressional LGBTQI+--
Equality Caucus, including our caucus chair, Mr. Cicilline. The 
caucus and this committee share a common understanding that the 
United States' responsibility to stand up for equality and 
human rights for the LGBTQI+ community does not stop at our 
borders, and this month in particular we stand in international 
solidarity not only with our own LGBTQI+ constituents here, but 
with communities around the world.
    And as this hearing has already demonstrated, the right of 
every person to have equal opportunity, regardless of gender or 
sexual orientation, regardless of who they love or their gender 
presentation, is an unequivocal part of our nation's human 
rights vision and correspondingly of our nation's foreign 
policy. So I am really grateful to all the witnesses and to 
you, Mr. Chairman, for calling this important hearing.
    I want, Mr. Chairman, to followup on your questions about 
democratic backsliding and we have--we have talked about this 
before. In recent years the backsliding we have seen across 
Europe and Eurasia has created a space for increased 
discrimination against the LGBTQI+ community, and Hungary and 
Poland are certainly of particular concern, with rapid 
democratic deterioration and codified reversals in progress for 
the community.
    Mr. Dombos, your last response about Fidesz creating a 
party so that they can appear to be the moderate party I think 
is a really troubling--a really troubling part of this 
conversation. But there is a trend here.
    And so what I would like, I would ask all of our panelists, 
if you could put this--the struggles for, and the attacks on 
,the LGBTQI+ community in the context, the broader context, of 
the deterioration of democratic institutions across the--across 
Europe and Eurasia, what--what is--how does this fit in?
    And, Mr. Dombos, you had made reference to this. 
Specifically, when you include this as part of the greater 
human rights struggle, how does the backsliding in your 
country--I will start with you and then everyone--how does it 
wind up--how does it wind up impacting the community 
specifically when you see this democratic backsliding taking 
place?
    Mr. Dombos. Well, I think the reaction of most people is to 
just run away, run away, either, like, completely closing out 
politics from their lives, because, you know, every morning you 
get up and you read a statement like that. Or they run out of 
the country. I mean, you know, we are in the EU, unlike Ukraine 
and Russia. So it is a right of any citizen to just leave the 
country and live in another country, and that is what is 
happening. After the trans law was adopted, dozens and dozens 
of my trans friends left the country from one day to the other 
because they said they do not want to live in a country that 
denies them the basic right, the basic rights to be who they 
are and to have the name they want.
    And, yes, I think it is very important to note this, that 
LGBTI people are just one among many other groups that are 
targeted. We are currently targeted the most in Hungary. But, 
you know, a few years ago it was homeless people. It was 
migrants. It was George Soros with very clear anti-Semitic 
tones. So it is--this is the logic of the government: to find 
an enemy and then pretend that they are saving the country from 
that enemy.
    And, unfortunately, since they have 2/3 majority, they can 
do whatever they want with legislation. They can change the 
constitution from 1 day to the other. They can, if they do not 
like what a certain public body is doing, they just abolish the 
public body. So they do not--you know, they do not fire the 
person. They just abolish the public body, and this is what 
happened with the data protection ombuds.
    Mr. Deutch. I appreciate that, Mr. Dombos. I just wanted to 
give----
    Mr. Dombos. Yes.
    Mr. Deutch. I would just like to provide an opportunity for 
the other witnesses.
    Maybe, Ms. Zakharova, can I ask you to comment on this?
    Ms. Zakharova. Yes. Absolutely. Thank you, Representative 
Deutch.
    As well as Hungary, in Russia LGBT is not the only targeted 
group and it is very clear to me that this part of civil 
society and all civil society is really oppressed and we can 
see how it was in the legislation of the foreign agents were 
adopted and we are now in the same box. Basically there is only 
one party in Russia and all the rest are considered to be the 
opposition and the opposition is oppressed.
    Mr. Deutch. Well, I appreciate it.
    Mr. Keating, I hope we will get to hear from the other 
witness on this as well but I will--I am out of time. So I will 
yield back. Thank you very much.
    Mr. Keating. Thank you, Representative. We might have time 
for a second round, too. So if you are interested in pursuing 
that, we will do it.
    To the witnesses, I will say this, that when you answer the 
question, you do not have to be recognized, unless the member 
designates, you know, a question directly for you. So feel free 
to jump in with a question, unless it is a, you know, an 
appointed designation.
    So with that, I am going to recognize Representative 
Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you again 
for this historic hearing. Thank you to the witnesses for being 
here. Happy Pride. Thank you for your heroic work around the 
world.
    You know, as I was listening to the testimony, it struck me 
that, you know, there must be a set of conditions in places in 
Europe and Eurasia that are leading, you know, politicians and 
State actors to conclude that supporting anti-LGBTQ parties is 
in their best interest and so I wondered if you could speak to 
kind of: What are the social, economic, and political 
conditions that are contributing to that and what, you know, 
are the long-term implications of being prevented from 
representing positive, you know, providing positive 
representations of LGBTQI people, particularly to young people, 
and kind of next generation of attitudes? But, you know, what 
is causing this?
    I think, Mr. Dombos, you said this is part of a strategy to 
divert attention from failed economic policies by rallying 
people around someone that they can create as a villain. I just 
wonder. What other conditions that you are seeing that are 
leading to this?
    Dr. Emson. If I may.
    Mr. Cicilline. Dr. Emson, do you want to start?
    Dr. Emson. Yes, all right. Thank you for question because 
it is a very important issue for our countries and I believe 
poverty is a big issue and, you know, economic pressure that 
people feel and government is really looking for some reason 
and looking for the channel where they can put people's anger, 
right. And governments in our countries, they are really 
looking at LGBTQI people as a group that can be really, you 
know, attacked without any consequences for attackers. Right?
    In our country, for example, and after the pandemic crisis, 
the situation is really not easy and today we have a lot of 
young people, new generation that are really transphobic, they 
are really homophobic and really aggressive toward LGBTQI, and 
they gather in groups. They gather even in registered 
organizations and they attack LGBTQI events and LGBTQI people 
and even people who are not belonging to LGBTQI communities 
but, like, look like LGBT, right, so people who look not 
normal, right, people who are different from the majority of 
the society.
    And this is very, very scary situation right now because, 
as my colleagues said before, it is not only about LGBTQI 
group. We have very visible. That is why we are attacked. But 
this anger is directed on many more groups like chroma people, 
like homeless people, and other groups that are not protected 
and, unfortunately, the government does not think about 
protecting them and about really making the country a safe 
place for everyone which is really important for us right now. 
Thank you.
    Mr. Cicilline. So can I ask any of the witnesses? You know, 
I think one of the things that we--the purpose of this hearing 
is to think about ways that the United States can partner with 
our European allies or European institutions like the Council 
of Europe to promote LGBT equality and dignity and obviously 
passing the Equality Act and passing some legislation that will 
reaffirm our commitment to the principles of equality for our 
community is one thing.
    But what other things can we do as the U.S. Congress to 
support the work that you are doing? I mean, we are very 
conscious of not--you know, in many countries, you know, so 
much of the argument is this is about Western ideas being 
imported to poison society and destroy your way of life. So we 
are very sensitive on the way we do it and we want to be smart 
about it. But what kinds of things can the U.S. Congress do to 
help support LGBTQI+ equality in places where you live and work 
right now?
    Bjorn, I think you are on----
    Mr. Van Roozendaal. Sorry. If I can comment there, I think 
that legally in these and when we look at Europe, a lot of 
progress has been made and some of you have said it earlier. 
There is--there is a limited amount of work that is possible in 
that space, albeit it continues to be important, of course, to 
address situations like in Hungary, like in Russia.
    I think beyond that what is important is that we--that we 
look at how hearts and minds can be won. And in order for that 
to happen, I think what needs to happen is, first, 
strengthening joint political commitment between countries and 
that is where a lot of work needs to happen.
    And then I think also in doing that, looking at what kind 
of programming can happen across both sides of the Atlantic 
that supports the work that LGBTQI movements are doing in 
winning hearts and minds and there I think the Global Equality 
Fund has played a very detrimental role already but its 
contribution to the work is still, yes, compared to with other 
countries who I think limited.
    So continuing to grow that and not just by the work that 
the State Department is doing but also the work that USAID is 
doing I think is important and within it also paying attention 
to the work that happens in places in Europe.
    Mr. Cicilline. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Titus for her 
questions.
    Ms. Titus. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It has been a long time since the Foreign 
Affairs Committee addressed this topic, and I think it is a 
crying shame that our colleagues from across the aisle couldn't 
find the time or have the concern to join us to hear about this 
issue.
    I appreciate everything the witnesses have been saying and, 
as they may or may not know, we have just recently introduced 
the GLOBE Act to try to restore the U.S.'s leadership position 
in this area and so I hope that we will see some movement on 
that and have the State Department again start to take the 
lead.
    We have also seen that COVID has made situations worse for 
groups that have traditionally, I guess, been discriminated 
against already. I wonder if you-all might address if you've 
seen any of the restrictions because of COVID been 
disproportionately applied to your community.
    Mr. Dombos. Yes, clearly. Of course, I think all of the 
political developments that have been happening I think are 
also in the context of COVID, as I mentioned, but it has also 
direct impact on people. People were not able to access HIV 
testing. They were not able to access medication. Transgender 
surgeries or hormonal treatments were canceled because of 
COVID. Many LGBTQI people had to move back to their families' 
home, families that are not necessarily supportive of them. 
This often put people in danger of domestic abuse on behalf 
their parents or their siblings. Many people lost their jobs 
because of COVID and many LGBTQI people work already in 
informal sectors and then they get no protection whatsoever. So 
I think it is true that we are among one of the biggest losers 
of the COVID crisis. Thanks.
    Dr. Emson. If I may add to this, so last year one of the 
leaders of the Ukrainian church, orthodox church, he declared 
that COVID happened because of gay people, just for you to see, 
you know.
    Well, and I would support my colleague from Hungary 
because, like, many people lost their jobs and many people need 
more support right now and specifically people with HIV 
positive status, right, because they really need more support 
and we need more testing and we need more support for this 
group. Right? And in terms of the LGBTQI rights, the situation 
is worsening as well because the government just used COVID in 
crisis as an excuse, right, from banning us from advocating our 
rights, right on the spot. Thank you.
    Mr. van Roozendaal. I have seen across the region that 
LGBTI groups have started to increase the kind of service 
proficient, service proficient that they do toward the LGBTI 
community, providing food, shelter, medical support in places 
with respect governments were hugely absent in providing the 
kind of services that LGBTQI people need. So I can say that in 
most places unfortunately governments have not met the space to 
think about the specific needs that the LGBTI community may 
need.
    And so at the time of global backlash, I think it is fair 
to say that LGBTI organizations have not only been overwhelmed 
at this point to the backlash but also stepped up the ways in 
which they have to take care of the community and how that is 
affecting LGBTI organizations is hugely important to name as 
well because we see, unfortunately, a lot of cases of burnout 
while being issues with human rights defenders who simply have 
too many things to work on, on an everyday basis.
    But you compare and it is just to put a number to it and 
you compare the level of funding between North America and 
Europe, we are at 1/10 of the amount of funding that is going 
around in the LGBTI movement in this region compared to our 
colleagues in the U.S. and Canada. So you can imagine that 
there is a situation of significant under-resourcing which 
really affects some activists in the movement at the moment as 
a result.
    Ms. Titus. I am sure that is true. Not only is the problem 
worse but the strain on the agencies trying to deal with the 
problem outside of government must be so great.
    Well, right now our President is traveling in Europe and is 
announcing that he is going to have an international vaccine 
plan.
    So, Mr. Chairman, maybe we can send a letter, encouraging 
him where he distribute this vaccine to our allies, that we are 
sure that all community are included, especially LGBTQ 
communities.
    Thank you, and I will wait until the next round for another 
question.
    Mr. Keating. Thank you, Representative. That is a great 
suggestion, and I appreciate that. Now we will just quickly 
have a second round of questions, if we could.
    I am just curious as we are talking about the control of 
the media, when we are talking about the way it is being 
manipulated. When instances occur--in our own country, we have 
instances of discrimination that make the press. Is that used 
at all, you know, by these other authoritarian countries where 
they highlight this is occurring in the U.S. or other 
democratic countries? Do you see that occurring at all as part 
of the media control and newspaper control? Anyone that might 
have seen that.
    Mr. Dombos. Yes. I think this mapping of, you know, 
homosexuality or LGBTQI activity as, you know, coming from the 
West is very common. But I think it is--at least in the case of 
Hungary, you have to understand that Hungarians are very pro-
Western in their attitudes. If you look at the public opinion 
polls about support for European Union membership or trust in 
EU institutions, the trust is way, way higher in EU 
institutions, in European institutions, than it is in the 
Hungarian--the local Hungarian government.
    So I think it is very important to understand that yes, 
there is that, but that should not debilitate making a clear 
point about LGBTQI community.
    And I think it is also very important to emphasize that, 
unfortunately, much of the conservative kind of family values, 
gender ideology discourse is coming from the U.S., and it is 
sponsored by United States bodies, evangelical churches, clear 
conservative groups that are losing out in their own country, 
and they export their homophobic and transphobic views in other 
countries.
    We have seen this all over the world in the past 2 decades, 
in African countries, and it is currently happening in Hungary. 
I mean, our homophobic Minister of Family Affairs is regularly 
attending these meetings with U.S. evangelicals as well as with 
Russian, you know, strategists that are trying to build_on an 
international level_a coalition of conservative, family 
oriented countries and groups. And then, of course, they impact 
how policies and decisions are made in Hungary.
    Mr. Keating. Well, you know, thanks for that comment 
because I think it really underscores the importance of our 
committee having this hearing and the fact that this is an 
international issue and not just a domestic issue. I think 
there is--part of authoritarianism is the idea that, you know, 
they are closed to other borders, they make their own 
decisions, they have their own, but this is truly 
international.
    And you mentioned Hungary again. You know, the poll is--you 
know, the polls taken there are quite clear, very high, 79, 80 
percent of the people believe these issues are private matters, 
but still, you know, Orban is able to do what he is doing. How 
is he getting away with manipulating that with such a strong 
population in support of keeping this a private human rights 
issue?
    Mr. Dombos. I think the reason is that they are very 
professional in polling people and finding issues where you 
have slightly less support, so that is why they picked on 
transgender people. That is why they picked on adoption issue. 
That is why they are picking up on school education now because 
those are the topics that many Hungarians feel a bit less 
secure about and more uncomfortable about.
    And, also, those issues are very often, unfortunately, the 
ones which are not covered by the European Union law, so they 
are, you know, freer to venture into those areas. And, you 
know, they do not have to convince every single Hungarian.
    They only have to convince those very loyal supporters that 
they need to take to the polls, and that is how they are 
working. They know, you know, each and every person, basically, 
that votes for them. And they target them, micro target them 
with very clear messages that resonate with what they think 
about the world. And, unfortunately, with some of the--with 
some groups in society, this kind of homophobia and transphobia 
resonates very well with their fears.
    Mr. Keating. Are you finding--and this is for any of the 
panel. You know, we have talked a great deal about the free 
speech, freedom of assembly, the ability to speak up, those 
type of freedoms too. But are you seeing in these countries 
where this kind of repression is occurring, issues like housing 
and employment being affected too? I mean, our Equality Act 
that we are passing here protects housing issues, employment 
issues, issues of getting loans and financing, but are you 
seeing housing? What other areas are you seeing this 
discrimination really spread to?
    Dr. Emson. Do I still have time?
    Mr. Keating. Yes. Oh, yes.
    Dr. Emson. Yes. Okay. If I may, I would sort of point out 
that housing is a big issue for LGBTQI people in Ukraine 
specifically like I believe in other countries in the region 
because people, in order to rent a house or a flat, right, they 
need to hide themselves, right. We cannot be visible. We cannot 
be open. If you are open, you stand no chance for getting rent 
or getting apartment. It is a big problem because the 
legislation does not mention any discriminated groups in terms 
of protecting their rights for housing or for food or for 
employment, right.
    We do not have this in our legislation, and, unfortunately, 
this really affects LGBTQI people in the country.
    Mr. Keating. Any other comments in that regard? Go ahead. I 
am sorry.
    Mr. van Roozendaal. I am sorry. No. There is an increasing 
body of research around homelessness in particular amongst 
LGBTI young people in the region, and unfortunately, the 
numbers that are coming in have very stark similarities between 
what we see in the U.S. So there are huge instances of 
homelessness amongst young people who often can no longer stay 
with their parents and then sleep rough because they have no 
place to go to.
    In the field of employment, I would say the European Union 
and its 27 member States have laws, anti-discrimination laws to 
employment, but the implementation there often fails. And in 
too many neighboring countries, that is not the case. And so 
what we see is also in recent years that the growing number of 
LGBTQ community members needs to turn to litigation to get 
their rights recognized in also a lot of the council of Europe 
countries.
    So this is a huge body of work I think in the field of 
socioeconomic rights where yet a lot of needs are there, but 
also a lot of, I think, opportunities for the LGBTI movement to 
work on.
    Mr. Keating. Thank you.
    Representative Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Ms. Zakharova, I hope I pronounced it correctly, the 
Russian Federation is obviously a global leader in the 
persecution of LGBTQI+ persons and persuades Nations and 
individuals within its sphere of influence to adopt their 
hateful doctrine as their own. Activists face violence and 
detention.
    Vladimir Putin regularly articulates his disdain not just 
for equality but the LGBTQI community in Russia but for human 
rights in general. And the Russian government, as you know, has 
failed to adequately address targeted criminal acts against 
Russia's LGBTQI community.
    My question is in that context, what role does social media 
and enhanced tech monitoring play in anti-LGBTQI harassment and 
violence, both by private citizens and by national and 
regionally governments like those in Chechnya?
    Ms. Zakharova. Well, thank you for this question. And I 
would say that social networks and technologies is a double-
sided thing because on the one hand, it is a source--for many 
people, it is a source of information, especially for many 
young people. And I can see how young people in Russia are 
different from us. For instance, like several years ago there 
was a public poll opinion, and more than 50 percent of school 
children, people who are basically targeted by this propaganda 
law said that they support same sex marriages. But at the same 
time, of course, quite often, the same networks are used 
against LGBT+ communities, especially in such close communities 
and in Chechnya where people, like, literally cannot be open. 
It is dangerous. It threatens their lives.
    And, of course, authorities, local authorities use their 
vulnerability. And--well, it is something that is happening, 
and I think that probably international business should pay 
more attention to security in such countries like Russia, 
especially such regions as Chechnya.
    Mr. Cicilline. Thank you.
    Dr. Emson, you know, I think a lot of people are watching 
with some concern that in Ukraine, the ultra conservative far 
right is retaining a lot of influence and a lot of power, 
risking not only the rights of LGBTQI people but also Ukraine's 
democratic future.
    And it has been reported that anti-LGBTQI+ legislation, 
including legislation introduced by members of President 
Zelensky's own party, has been circulated in Ukraine that 
closely resembles initiatives either introduced or enacted in 
Russia. And I wonder how much influence does Russian have over 
the debate for LGBTQI+ people in Ukraine and what you see the 
prospects for that law.
    Dr. Emson. Thank you very much for those questions because 
this is a very important issue as well. Right now, it is 
Russian influence, right.
    So since 2012, right, we have experienced those efforts of 
different political parties to introduce the gay propaganda law 
in Ukraine, right. And last year and we know that some MPs are 
getting ready to introduce it again and again, and we know that 
political parties are standing behind those efforts.
    And, moreover, it is not only about the legislation. It is 
about the far right groups that we believe are partly financed 
by the Russian government or the Russian security forces, and 
they train these groups. And they really put a lot of effort in 
erasing these groups inside Ukraine. And homophobia and 
transphobia is a big issue because of this Russian influence.
    And young people right now in Ukraine, some of them are 
really under this influence, and we are afraid that this 
influence is growing. Unfortunately, this is very big. This is 
not only the Ukranian government war and peace, right. This is 
the propaganda that goes from all sources like media, like 
social media, like money that really spread into these far 
right groups growing.
    Mr. Cicilline. Yes. I will just get in one quick question, 
Mr. Dombos. When you were talking about using particular issues 
like the transgender community adoption and school issues, we 
see the same things in the United States for organizations that 
are opposing our fight for full equality.
    I wonder if you could just speak a little more about the 
role of U.S. groups and these evangelical groups because I 
think this is really alarming, you know. We are always accused 
of exporting, you know, tolerance for the LGBTQ community and 
acceptance, and what you are saying is just the opposite. The 
U.S. is exporting some pretty--you know, some organizations 
that are promoting undermining equality for our community, and 
I think we need to know more about that.
    Mr. Dombos. Exactly. The World Congress of Families, for 
example, which is a hate group recognized by the Southern 
Poverty Law Center, they are--you know, they have done several 
conferences in Hungary. They are inviting, you know, public 
speakers.
    You know, they try to sound as like support for family 
values, but it is very clearly an anti-LGBT rights and an anti-
women's rights, anti-sexual and reproductive health rights 
coalition that is putting a lot of effort, money, and know-how 
as well in how to do this, what topics to look at, what--how to 
frame topics.
    And I think that, of course, the reason why they are so 
similar is partly because, you know, humans all over the world 
have similar fears. They are afraid for their children, you 
know.
    They want the best for their children. So if they are 
telling them that, oh, these monster trans freaks are going to 
turn your child into a trans person that you will never 
recognize, and you will lose your son or lose your daughter, 
then people resonate with this.
    But it is also not just this, you know, basic human 
mentality but also, you know, very clear networks that are 
being put in place.
    And policy learning, unfortunately, is taking place in its 
worst way. We see amendments to the Hungarian Constitution 
popping up in other countries. We see the propaganda law 
introduced in Hungary, copying Russia. Unfortunately, there is 
policy learning among these countries to the worse.
    Mr. Cicilline. Thank you so much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Keating. Thank you, Representative.
    Now I will recognize for the final questions the chief 
sponsor of the GLOBE Act, Representative Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    If you look back at the history of LGBT rights in this 
country, you find that much of that started at the State level. 
The Congress was late to get on board. We Had initiatives at 
the State level. State legislatures passed equality laws or 
marriage laws. And then when they reached a tipping point, 
Congress came on board.
    I realize that you all do not have the same kind of Federal 
system or maybe even referenda or initiatives like we do here, 
but have you had any luck at trying to deal with lower levels 
of governments like communities or States or regions, working 
your way up to the national level? Is that a possibility where 
you all are?
    Ms. Zakharova. Can I start answering this question? I think 
that in Russia, the political process is quite different. There 
is only one ruling party, and basically there is no way, you 
know, to work with someone because local authorities are afraid 
of the central authorities, and they are just trying to do 
everything to please them. So I think that we have very 
specific situation where society is actually quite progressive, 
and authorities are very, very conservative. And they are 
trying to impose those conservative views onto all society, and 
there is this battle. Thank you.
    Dr. Emson. I would add on the Ukranian side and say in 
Ukraine, we had, like, some friendly politicians and MPs that 
would help us. This is a very interesting phenomenon. They 
would get bullied in the parliament. Literally, their 
colleagues would blame them for all sorts of things just 
because they support LGBTI people. And in this situation, it is 
very hard for us to really advocate and lobby the legislation 
that we need right now.
    Mr. van Roozendaal. I would like to add to that, mention to 
that, because it is an intriguing question. I would like to tie 
it into the previous question on the opposition in that where 
we do see a lot of success often at the local level, it is not 
necessarily when it is political as [] Lenny and Svetlana have 
described but when it comes to looking at building other kinds 
of coalitions.
    So where can LGBTI activists build alliances with doctors, 
with journalists, with teachers, with any kind of professionals 
who want to exercise their profession in ethical and moral, 
morally high standards. And, there, often we see that a lot of 
change is possible when we do not only focus on the political 
and legal process.
    And I think that recognizing that kind of important local 
work is important, and I would like to tie it into the 
opposition work because it is essentially also about alliance 
building. And Tamas just mentioned that a lot of the opposition 
is not just targeting the LGBTI movement but also the sexual 
rights movement and the women's rights movement, and that is 
true.
    And I think what is important in ways in which we support 
activists who are working on sexual rights, on women's rights 
or LGBTI rights is to consider how we bring groups together, 
not just only on those fronts but also with mainstream human 
rights organizations and those that stands up to defend 
democracy. This is often where LGBTI activists need the time, 
the resources to build the connections.
    So recognizing when it comes to funding the importance of 
alliance building is extremely important, and I think the ways 
in which you can all support that work is also looking out for 
opportunities in which embassies can be bringing people 
together and which you, as representatives, can bring in 
different kinds of allies together and help to work toward 
larger democratic agendas.
    Ms. Titus. You are right. Coalition building is so 
important, and we often find you put together a group of 
organizations on the liberal end of the political spectrum. 
They do not just have to be human rights. You might find allies 
in the environmental community, for example. I do not know if 
you have seen that, but we certainly see that here. Or the 
labor movement,]or--you know, it just depends. That is great.
    Just briefly, Mr. Chairman, I wanted to ask about Turkey. 
In the last century, Turkey was seen as kind of a standard 
bearer for protecting LGBT rights and protecting them from the 
other countries in the neighborhood. But under Erdogan in the 
last 10 years, they have gotten much more repressive. I wonder 
if you have any suggestions on what the U.S. Can do in dealing 
with Turkey that might address this problem.
    Mr. van Roozendaal. Yes. Unfortunately, Turkey is also 
looking at putting its playbook in many ways increasingly in 
recent times, and I would almost answer the same things. 
Because when you look at how the movement currently is under 
attack, it is in the field of freedom of expression, in freedom 
of assembly.
    All the things that have been mentioned during this hearing 
are affecting the community at the moment in that online spaces 
are increasingly no longer safe.
    So I think what is extremely important is to raise these 
issues by letter but very carefully and very respectfully 
because Erdogan, in kind of defending his political territory 
at the moment, is really using the narrative of western values 
very much. So I think it is important that when the issue is 
brought up, that it is brought up as an issue that is about 
freedom of expression, that it is about defending democracy, 
that it is about defending pluralism.
    And we see in the run up to the elections that will take 
place in Turkey in 2 years that Erdogan is losing popularity. 
So the question is really what is going to happen around those 
elections, and what work can be done on the ground in building 
kind of a broader political agenda that is looking at different 
sets of value. So supporting broad civil society initiatives of 
which the LGBTI movement is a part, I think is one of the 
critical factors of success at the moment.
    Ms. Titus. Thank you, Mr. Chairman.
    I yield back.
    Mr. Keating. Thank you, Representative.
    I would like to thank Mr. van Roozendaal. I would like to 
thank Dr. Emson and Ms. Zakharova as well as Mr. Dombos for 
your excellent testimony here today. It is not just your 
testimony but the courage that you have given speaking up. You 
are speaking up, in many instances, in territories where it is 
very difficult to speak up. It is very difficult to come 
forward, and I want to let you know this committee appreciates 
your efforts but also your courage doing this. This is so 
important.
    I also would like to ask you, since this came up as a 
subject matter in today's testimony, if you have any more 
specific suggested language you could add, we would like to 
move forward with Representative Titus' suggestion that we 
contact the White House and make sure with the distribution of 
vaccines, as we export that assistance, that it is done in an 
inclusive way so that groups like the LGBTQI+ community are not 
excluded from having these life-saving vaccines. I think that 
is very important as well.
    And I do want, I do hope that all of you as witnesses 
appreciate the members that participated here today. I think if 
you check back on important legislation and advocacy, you are 
going to find that people who participated here are among the 
leaders in Congress in pushing forward protections for these 
very basic human rights. So I want to thank the members who are 
participating as well today.
    So with that, I just would say that a little bit of 
housekeeping. The members of the committee will have 5 days to 
submit statements, extraneous materials, and questions for the 
record subject to the limitation on rules.
    Again, I want to thank everyone for participating. This 
was, indeed, a very important, if not historic congressional 
committee hearing today, and I think it will continue to break 
ground so that there is more attention to the global impact of 
this kind of discrimination. So, with that, I will call the 
hearing adjourned. Thank you all.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 
                                


                                 <all>
</pre></body></html>
